Ernst & Young LLP Final Report, “Information Technology Management Letter Comments”
(IG-10-003, November 10, 2009)

The Office of Inspector General (OIG) forwarded to NASA management an Ernst & Young LLP
(E&Y) report containing information technology findings and recommendations associated with
NASA’s Integrated Enterprise Management Program (IEMP). E&Y performed procedures to
assess the effectiveness of the information technology control environment (general and applica-
tion controls) as part of its audit of NASA’s Fiscal Year 2009 Financial Statements (IG-10-002,
available over the Internet at http://oig.nasa.gov/audits/reports/FY10/IG-10-002.pdf). Under the
Chief Financial Officers Act of 1990, NASA’s financial statements are to be audited in
accordance with generally accepted government auditing standards.

The E&Y report included findings noted during the current year and the status of FY 2008 findings
and recommendations. E&Y noted that the NASA Enterprise Applications Competency Center
(NEACC), which operates and maintains many of the Agency’s enterprise business systems, including the
financial system, has taken significant steps to resolve a majority of the FY 2008 findings. E&Y reported
four findings for FY 2009, three of which had been resolved as of September 30, 2009. NASA
management concurred with E&Y’s recommendation related to the open finding and will take
appropriate corrective action.

The report contains NASA Information Technology/Internal Systems Data that is not routinely
released under the Freedom of Information Act (FOIA). To submit a FOIA request, see the online
guide.
